   United States Department of Agriculture
   Office of Inspector General




Rural Utilities Service's Controls Over Water
and Waste Disposal Loan and Grant Program
for the Recovery Act




                                             Audit Report 09703-0001-AT
                                             July 2012
                               United States Department of Agriculture
                                     Office of Inspector General
                                         Washington, D.C. 20250




DATE:          July 24, 2012

AUDIT
NUMBER:        09703-0001-AT

TO:            Jonathan Adelstein
               Administrator
               Rural Utilities Service

ATTN:          John Purcell
               Director
               Financial Management Division

FROM:          Gil H. Harden
               Assistant Inspector General
                For Audit

SUBJECT:       Rural Utilities Service’s Controls over Water and Waste Disposal Loan and Grant
               Program for the Recovery Act


This report presents the results of the subject audit. Your written response to the official draft dated
June 1, 2012, is included in its entirety at the end of the report. Excerpts from your response to our
Fast Reports and the Office of Inspector General’s position are incorporated in the relevant Findings
and Recommendations sections of the report. Based on your responses, we were able to accept
management decision on all recommendations in the report, and no further response to us is necessary.

In accordance with Departmental Regulation 1720-1, final action is required to be taken within 1 year
of each management decision to prevent being listed in the Department’s annual Performance and
Accountability Report. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer, Director, Planning and Accountability
Division.

We appreciate the courtesies and cooperation extended to us by members of your staff during our audit
fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................5
Section 1: Recovery Act Issues...............................................................................7
   Finding 1: Rural Utilities Service Needs to Improve Project Transparency
   for the Water and Waste Disposal System Recovery Act Projects..................7
         Recommendation 1 ........................................................................................9
   Finding 2: Inappropriate Use of Unexpended Grant Funds .........................11
         Recommendation 2 ......................................................................................12
         Recommendation 3 ......................................................................................13
Scope and Methodology .........................................................................................15
Exhibit A: Summary of Monetary Results .........................................................17
Exhibit B: Recovery Act Funds Obligation Dates, Amounts, Construction
Dates, Expenditures, and Elapsed Time ..............................................................18
Exhibit C: Number of Jobs ..................................................................................21
Exhibit D: State and Area Offices Reviewed......................................................22
Exhibit E: Sampling Methodology and Results .................................................23
Abbreviations .........................................................................................................24
Agency’s Response .................................................................................................25
Rural Utilities Service’s Controls Over Water and Waste Disposal
Loan and Grant Program for the Recovery Act

Executive Summary
In order to improve the quality of life for rural residents, while creating and saving jobs in rural
communities, Congress, as a part of the American Recovery and Reinvestment Act of
2009 (Recovery Act), designated $3.8 billion in funds for the Water and Waste Disposal System
Loan and Grants Program (WWD) in rural areas. Three of the Recovery Act’s stated goals were
(1) to preserve and create jobs to promote economic recovery; (2) to assist those most impacted
by the recession; and (3) to invest in transportation, environmental protection, and other
infrastructure that will provide long-term economic benefits. In enacting the Recovery Act,
Congress emphasized the need for accountability over the expenditure of funds. In response, the
Office of Management and Budget (OMB) required Federal agencies to establish rigorous
internal controls to ensure that Recovery Act funds were distributed in accordance with that
objective. 1 In addition, the Office of Inspector General (OIG) was required to provide
monitoring and oversight to ensure accountability and transparency of Recovery Act funds.

Therefore, OIG initiated this audit (1) to evaluate the effectiveness of the Rural Utilities Service's
(RUS) control systems for achieving the WWD goals of providing loans and grants for sewer,
storm water, and solid waste disposal systems in cities and towns having populations up to
10,000 people; (2) to ensure program participants fully met eligibility requirements and complied
with program requirements; and (3) to evaluate whether projects met the provisions and intent of
the Recovery Act. As of September 30, 2011, RUS had obligated $3.3 billion 2 in grants and
loans to fund 854 WWD projects throughout the United States. Using RUS’ universe of
$1.5 billion in Recovery Act obligations as of September 30, 2009, we selected and reviewed a
sample of 22 of 429 WWD projects, totaling $189 million in obligations. 3

Generally, we found RUS had effective controls in place to ensure that WWD loans and grants
were provided to eligible program participants and that the participants complied with program
requirements. In addition, we concluded the WWD infrastructure improvements that were
funded will most likely contribute to economic growth in the future, as emphasized under the
Recovery Act. However, our review disclosed improvements are needed to ensure that
transparency and accountability requirements emphasized under the Recovery Act are followed.
In our review of a sample of 22 projects, we found the Recovery Act’s stated goal to promote
economic recovery through the preservation and creation of jobs has not yet been fully met, over
30 months after the passing of the Recovery Act. This was evident in the 22 WWD projects
reviewed that reported less than 20 percent of the actual jobs identified in planning estimates.
Specifically, RUS estimated that 3,384 jobs would be created or saved from our sample projects.


1
  “Initial Implementing Guidance for the Recovery Act,” dated February 18, 2009, and, “Updated Implementing
Guidance for the Recovery Act,” dated April 3, 2009. More updates have since been issued, including those on
December 18, 2009 (M-10-08), March 22, 2010 (M-10-14), and, most recently, on September 24, 2010 (M-10-34).
2
  As of November 23, 2011, RUS had de-obligated $71 million of this amount.
3
  See exhibit E.


                                                                AUDIT REPORT 09703-0001-AT                     1
However, as of September 30, 2011, RUS reported a total of only 415 actual jobs on
Recovery.gov as created or saved (see exhibit C). 4

RUS deems projects "started” at the time loan and/or grant funds are obligated. We found that
projects experienced long periods between the obligation of the funds and the start of the actual
construction phase, where most project spending and job creation occurs, due to preconstruction
requirements. The Recovery Act states that preference should be given to activities that could be
started and completed expeditiously, including a goal of using at least 50 percent of the funds for
projects that could be started within 4 months. However, we found only 3 of our 22 WWD
(totaling $33 million) projects actually met this timeframe. In fact, we found that construction
for 16 of 22 WWD projects (totaling $103.1 million) was not started until 5 to 30 months after
the obligation of funds, while 3 other projects (totaling $52.9 million) had yet to reach the actual
construction phase as of November 2011. For these three projects, the timeframes between
funding obligation and estimated start of construction ranges from 30-36 months. 5

Overall, RUS estimated 56,000 jobs would be created or retained as a result of the WWD
Recovery Act funding; however RUS does not report on the Recovery Act’s website the total
number of actual jobs created or saved. 6 In addition, we found that RUS does not clearly
identify on its website the amount of time needed to initiate construction of water and waste
disposal projects once funds are obligated and the impact such timing has on project spending
and job creation. Without RUS’ disclosure of project timing, the public may not fully
understand the progress of water and waste disposal projects in meeting the goals of the
Recovery Act.

RUS officials agreed that job creation is an important element of the Recovery Act, but believe
that the WWD projects funded were more intended to address the 4th component of the Recovery
Act’s stated purpose, “to invest in transportation, environmental protection and other
infrastructure that will provide long-term economic benefits.” We agree with RUS officials that
the WWD infrastructure improvements funded will most likely contribute to economic growth in
the future. However, a primary goal of the Recovery Act is to promote economic recovery
through the preservation and creation of jobs. As a result, we conclude that greater transparency
through disclosure of project timing is needed, so that the public may fully understand the
progress of water and waste disposal projects in meeting all the goals of the Recovery Act.


4
  Our August 31, 2011, Fast Report 09703-0001-AT (2), “Rural Utilities Service Needs to Improve Project
Transparency for the Water and Waste Disposal System Recovery Act Projects,” stated that 13 of the 22 projects
reported on Recovery.gov expenditures totaling $28.6 million and 178 actual jobs created or saved as of March 31,
2011.
5
  Our August 31, 2011, Fast Report 09703-0001-AT (2), “Rural Utilities Service Needs to Improve Project
Transparency for the Water and Waste Disposal System Recovery Act Projects,” found that actual construction for
3 of the 22 projects (totaling $33 million) started within 4 months of the obligation date, the preferred time stated in
the Recovery Act. However, construction for 14 other projects (totaling $65.8 million) started 5 to 21 months after
obligation of funds; while the remaining 5 projects (totaling $90.1 million) had yet to reach the actual construction
phase as of July 22, 2011. For these five projects, the timeframes between funding obligation and estimated start of
construction ranges from 25 to 36 months.
6
  Recipients report the amount of jobs created or saved quarterly in the recipient reporting section of Recovery.gov
on a project-by-project basis. RUS does not report total numbers to determine the overall number of jobs created or
saved.


2     AUDIT REPORT 09703-0001-AT
We also found that Maine’s Rural Development office inappropriately funded a WWD Recovery
Act project with unexpended funds from previous projects approved for the borrower. State
officials claimed that they authorized the rollover of funds because the borrower had already
been approved for the funding during the previous underwriting process and this funding would
be carried forward for eligible program purposes involving the next project. As a result, RUS'
action provided the town of Farmington with an unfair advantage for unused funds by allowing it
to use these funds without having to reapply, as would new applicants. This action also violated
grant limitation requirements.

Recommendation Summary
In a Fast Report issued on August 31, 2011, we recommended that Rural Development explain
on Recovery.gov the time needed to initiate actual construction for each water and waste
disposal system project following obligation of funds and this timeframe’s impact on the timing
of project spending and jobs created. In response, on December 29, 2011, RUS posted the
information on the Rural Development Recovery Act website. We are able to accept
management decision for this recommendation, due to the subsequent posting of the information
on April 5, 2012, on the Recovery.gov website. RUS has informed OIG that the information will
continue to be provided to OMB in the weekly Recovery Act Financial and Activity Report and
posted on the Recovery.gov website.

We also recommended in a Fast Report, 7 issued on November 19, 2010, that Rural Development
recover the $79,000 in mislabeled grant funding from the town of Farmington and conduct a
review of similar projects. If any discrepancies resulted in funds being due to the agency, as in
the case of the town of Farmington, we recommended Rural Development recover those
amounts. We are able to accept management decision for these recommendations, based on the
response received from the agency on November 30, 2010. In addition, Rural Development
notified OIG on April 24, 2012, that, during the week of February 28 to March 3, 2011, they
completed a review at the Maine State office of obligations for the past 4 years for all projects
where additional funding was authorized to the same borrower. According to Rural
Development, no additional instances of unliquidated rollovers of funds occurred in the projects
reviewed.

Agency Response
Rural Development and RUS officials generally agreed with our findings and recommendations
in the report. They proposed corrective actions from our Fast Reports noted above that should
alleviate the cited issues. Excerpts from their responses to our Fast Reports have been
incorporated into relevant sections of the report, and a general response to our report content,
dated June 1, 2012, is included at the end of this report.




7
 Fast Report 09703-0001-AT (1), “Controls Over Water and Waste Disposal Loans and Grants – Inappropriate Use
of Unexpended Grant Funds” issued November 19, 2010.


                                                               AUDIT REPORT 09703-0001-AT                  3
OIG Position
Based on Rural Development’s and RUS’ responses, we accept management decision on all
three recommendations in the report.




4    AUDIT REPORT 09703-0001-AT
Background and Objectives

Background
The Rural Utilities Service (RUS), an agency within the Department of Agriculture's (USDA)
Rural Development mission area, was established by Public Law 103-354, Federal Crop
Insurance Reform and USDA Reorganization Act of 1994, enacted into law on October 13,
1994. RUS administers the Water and Waste Disposal System Loan and Grants Program
(WWD) to improve the quality of life and promote economic development in rural America
through loans and grants for sewer, storm water, and solid waste disposal systems in rural cities
and towns having populations up to 10,000 people. 8 Loan and grant funds may be used to
construct, enlarge, or otherwise improve rural water, sanitary sewage, solid waste disposal, and
storm wastewater disposal facilities. RUS delivers the WWD through the 47 Rural Development
State offices, as well as area and local offices.

To receive loan assistance, the borrower must be a public entity. This can include municipalities,
Indian tribes, and non-profit corporations. Applicants must (1) be unable to obtain the needed
funds from commercial sources at reasonable rates and terms; (2) have the legal capacity to
borrow and repay loans, to pledge security for loans, and to operate and maintain the facilities;
and (3) propose facilities that are consistent with any development plans of the State,
multi-jurisdictional area, counties, or municipalities where the project is to be located. All
facilities must comply with Federal, State, and local laws, including those involving zoning
regulations, health and sanitation standards, and water pollution control. Grants may be made
for up to 75 percent of eligible project costs and are available to reduce water and waste disposal
costs to a reasonable level for users of the system.

Congress passed the American Recovery and Reinvestment Act of 2009 (Recovery Act), to
alleviate the economic crisis facing our country. It designated approximately $3.8 billion for
WWD loan and grant funds ($2.8 billion in loan funds and $968 million in grant funds). In
May 2009 (updated as of May 2010), 9 Rural Development issued its implementation plan for
Recovery Act funds with goals to: 10

    •   Provide a 10 percent allocation of funds for investment in persistent poverty counties;
    •   Increase new or improved services for 1.9 million customers;
    •   Reduce by 6 percent rural customers’ exposure to water-related health and safety hazards
        (based on projects funded that will remove an identified health and safety hazard); and
    •   Create or save an estimated 56,000 jobs.



8
  Water and waste disposal loans and grants are authorized under section 306 of the “Consolidated Farm and Rural
Development Act” (Title 7 United States Code 1926), as amended.
9
  In May 2010, Rural Development published an updated plan, in which the anticipated obligation of funds was
reduced to $3.3 billion due to a change in the subsidy rate between fiscal years 2009 and 2010, as well as
reprogrammed loans to grants.
10
   USDA Rural Development American Recovery and Reinvestment Act Implementation Plan, dated May 9, 2009
(updated May 15, 2010).


                                                                  AUDIT REPORT 09703-0001-AT                       5
Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency concerning the expenditure of Recovery Act funds. Further, on February 18, 2009,
OMB issued initial guidance that required Federal agencies to establish rigorous internal
controls, oversight mechanisms, and other approaches to meet the accountability objectives of
the Recovery Act. 11 Rural Development issued a plan 12 to guide its implementation of the
Recovery Act.

As of September 30, 2011, RUS had obligated $3.3 billion in loans and grants for 854 WWD
projects throughout the United States and its territories.

Objectives
The objectives of our audit were to (1) evaluate control systems utilized to ensure water and
waste disposal program objectives are achieved; (2) ensure program participants fully meet
eligibility requirements and comply with program requirements; and (3) evaluate whether
projects meet the provisions and intent of the Recovery Act.




11
   “Initial Implementing Guidance for the Recovery Act,” dated February 18, 2009, and “Updated Implementing
Guidance for the Recovery Act,” dated April 3, 2009. More updates have since been issued, including those on
December 18, 2009 (M-10-08), March 22, 2010 (M-10-14), and most recently on September 24, 2010 (M-10-34).
12
   “USDA Rural Development American Recovery and Reinvestment Act Implementation Plan,” dated May 9, 2009
(updated May 15, 2010).


6     AUDIT REPORT 09703-0001-AT
Section 1: Recovery Act Issues

Finding 1: Rural Utilities Service Needs to Improve Project Transparency for
the Water and Waste Disposal System Recovery Act Projects
Our review disclosed that improvements were needed to ensure the transparency requirement
emphasized under the Recovery Act is followed. RUS did not clearly convey to the public
through Recovery.gov the additional time it takes to begin actual construction (the time when
most jobs are created) once a project is obligated. Without a clear understanding of when project
construction begins, the public may misjudge the progress of RUS’ water and waste disposal
projects in meeting the goals of the Recovery Act. In our review of a sample of 22 projects, we
found the Recovery Act’s stated goal, to promote economic recovery through the preservation
and creation of jobs, has not yet been fully met. This was evident in the 22 WWD projects
reviewed that reported less than 20 percent of the actual jobs identified in planning estimates as
being created over 30 months after passage of the Recovery Act. Specifically, RUS estimated
that 3,384 jobs would be created or saved from our sample projects. However, as of September
30, 2011, recipients reported a total of only 415 actual jobs on Recovery.gov as created or saved
(see exhibit C). While recipients report this data quarterly, the totals are not available on
Recovery.gov. To obtain the information in total, one would have to review each project and
then each quarter of data to obtain the information for the program as a whole. Also, we found
that 17 of the 22 sampled projects reported expenditures totaling only $51.8 million out of
$189 million as of September 30, 2011 (see exhibit B). RUS officials indicated they expect
increased numbers in expenditures and jobs created or saved as projects progress.

Our review of a sample of 22 of 429 projects funded in FY 2009 found that many of the projects
experienced long periods between the obligation of the funds and actual construction, where the
majority of new jobs are created. RUS deems projects "started” at the time loan and/or grant
funds are obligated. However, actual project construction could be delayed months or years after
obligation, due to preconstruction requirements. With the obligation of funds, a project will have
already completed preliminary design, environmental reviews, and assessments. Projects are
then ready to proceed to final design and bid. 13 Yet, there are several time-consuming steps that
must be completed after funds are obligated and prior to the start of actual construction which
include, but are not limited to:

     •   Completing the final design and submitting it to RUS, the State health department, and
         the State public service commission for review and approval;
     •   Acquiring signed user agreements and collecting tap fees 14 (if new customers are added);
     •   Acquiring applicable permits from the U.S. Army Corps of Engineers, Division of
         Highways, Public Land Corporation, or railroads;
13
   Final design entails final plans and specifications for projects. According to 7 Code of Federal Regulations (CFR)
4280.115, final plans and specifications must be reviewed by the agency and approved prior to start of construction.
RUS Instruction 1780.72 provides that when competitive sealed bidding is applicable, an invitation for sealed bids is
publicly advertised and a firm-fixed-price contract is awarded to the responsible bidder whose bid, conforming to all
the material terms and conditions of the invitation for bids, is lowest, price and other factors considered.
Competitive sealed bids are the preferred procurement method for construction contracts.
14
   Fees associated with the establishment and connection of water and sewer lines.


                                                                    AUDIT REPORT 09703-0001-AT                     7
     •    Acquiring any new property and rights-of-way that are needed for the project;
     •    Conducting an initial RUS compliance review;
     •    Submitting proposed user rates;
     •    Purchasing appropriate insurance coverage; and
     •    Advertising for bids and contract awards.

In our review of 22 of 429 projects, only 3 of the projects (totaling $33 million) started actual
construction within 4 months of the obligation date, the preferred time stated in the
Recovery Act. 15 However, construction for 16 other projects (totaling $103.1 million) started
5 to 30 months after obligation of funds, while the remaining 3 projects (totaling $52.9 million)
had yet to reach the actual construction phase as of November 2011. For these three projects, the
timeframes between funding obligation and estimated start of construction range from
30 to 36 months. 16 In one instance, RUS obligated $22 million in Recovery Act funds for the
Atchison County, Missouri, Wholesale Water Commission project in June 2009. Project
officials initially estimated that construction for this project would start in February 2011, or
over 20 months following the obligation of project funds (see exhibit B). When we contacted
RUS officials in November 2011, construction still had not begun for this project. 17

Although we did not question the timeliness of RUS’ loan and grant making and processing for
water and waste disposal projects, we believe it is critical that RUS be transparent as to the time
needed to initiate construction of water and waste disposal projects because of the goals of the
Recovery Act. Three of the Recovery Act’s stated goals were (1) to preserve and create jobs to
promote economic recovery; (2) to assist those most impacted by the recession; and (3) to invest
in transportation, environmental protection, and other infrastructure that will provide long-term
economic benefits.

RUS officials contend that, while many Recovery Act projects are focused more immediately on
jumpstarting the economy, others, especially those involving infrastructure improvements, are
expected to contribute to economic growth for many years. However, RUS agreed that posting
additional information on Recovery.gov, as well as the Rural Development website, may assist
the general public in better understanding RUS’ program, processes, and implementation of the
Recovery Act. “Recovery.gov” is the Federal Government’s official website for data related to
the Recovery Act and a major source of information for the public. Agencies that received
Recovery Act funds are required to periodically report financial data on Recovery.gov, including
their obligations and expenditures. In the Recovery Act, Congress emphasized the need for
Federal agencies to be accountable and transparent in the expenditure of Recovery Act funds.


15
   Section 1602 Preference for Quick-Start Activities.
16
   Our August 31, 2011, Fast Report 09703-0001-AT (2), “Rural Utilities Service Needs to Improve Project
Transparency for the Water and Waste Disposal System Recovery Act Projects,” found that actual construction for
3 of the 22 projects (totaling $33 million) started within 4 months of the obligation date, the preferred time stated in
the Recovery Act. However, construction for 14 other projects (totaling $65.8 million) started 5 to 21 months after
obligation of funds; while the remaining 5 projects (totaling $90.1 million) had yet to reach the actual construction
phase as of July 22, 2011. For these five projects, the timeframes between funding obligation and estimated start of
construction range from 25 to 36 months.
17
   RUS officials have since reported that the project broke ground in December of 2011 and is currently under active
construction.


8        AUDIT REPORT 09703-0001-AT
Subsequently, OMB issued guidance 18 that required Federal agencies to establish rigorous
internal controls, oversight mechanisms, and other approaches to meet the accountability
objectives of the Recovery Act.

RUS did not clearly convey to the public through Recovery.gov the additional time it takes to
begin actual construction once funding for a project is obligated. Without a clear understanding
of when project construction begins, the public may misjudge the progress of RUS’ water and
waste disposal projects. We agree with RUS officials that the WWD infrastructure
improvements funded will most likely contribute to economic growth in the future. However, a
stated goal of the Recovery Act is to promote economic recovery through the preservation and
creation of jobs. As a result, we conclude greater transparency through disclosure of project
timing is needed, so that the public may fully understand the progress of water and waste
disposal projects in meeting all the goals of the Recovery Act.

We issued a Fast Report on August 31, 2011, detailing this issue. 19 The Recommendation from
that Fast Report is Recommendation 1 presented below. Rural Development’s official response
(dated September 13, 2011) to that Recommendation as well as our position are also included
below.

Recommendation 1
Explain on Recovery.gov the time needed to initiate actual construction for each water and waste
disposal project following obligation of funds and this timeframe’s impact on the timing of
project spending and jobs created.

Agency Response
In its September 13, 2011, response to our Fast Report, Rural Development stated:

        * * * With regard to public concern regarding our progress, the agency has received
        positive feedback regarding its Recovery Act implementation of water and waste
        loans and grants. We attribute this to the significant progress made on the RUS water
        and waste disposal Recovery Act projects, and to our efforts to inform the public of
        implementation activities. However, we do appreciate [the Office of Inspector
        General] OIG’s desire for additional public information on the timing of our projects
        and process. While recipients and the communities they serve have a keen
        understanding of our process, posting additional information on Recovery.gov (as
        permitted) and our RD [Rural Development] website may assist the general public in
        better understanding the program, our processes and our Recovery Act implementation.



18
   Initial Implementing Guidance for the Recovery Act, dated February 18, 2009, and Updated Implementing
Guidance for the Recovery Act, dated April 3, 2009. More updates have since been issued, including those on
December 18, 2009 (M-10-08), March 22, 2010 (M-10-14), and most recently on September 24, 2010 (M-10-34).
19
   Fast Report 09703-0001-AT (2), “Rural Utilities Service Needs to Improve Project Transparency for the Water
and Waste Disposal System Recovery Act Projects.”


                                                                  AUDIT REPORT 09703-0001-AT                     9
       RD is proud of the progress made to date by its Recovery Act water and waste funds
       recipients. The jobs that will be created or saved through full implementation will be
       just as critical and relevant to economic recovery as the jobs that have already been
       created or saved to date. The agency has invested significant resources and effort into
       tracking and ensuring that projects funded fulfill the intent of the Recovery Act and
       proceed at a pace that ensures that this critical infrastructure is built properly so as to
       serve rural communities well into the future. The agency is also committed to
       providing the public with information regarding implementation and, to that end, will
       post additional information regarding the program and processes on appropriate
       Recovery Act web sites.

On December 29, 2011, RUS provided an email to OIG with a link that showed additional
information posted to Rural Development’s Recovery Act website; however, this information
was not reported to Recovery.gov. Following the exit conference on April 24, 2012, the agency
provided OIG with information stating that as of April 5, 2012, the information is and will
continue to be provided to OMB in the weekly Recovery Act Financial and Activity Report
under the major activities tab and posted on the Recovery.gov website.

OIG Position
Based on the information received on April 24, 2012, we accept Rural Development’s
management decision for this recommendation.




10    AUDIT REPORT 09703-0001-AT
Finding 2: Inappropriate Use of Unexpended Grant Funds
Maine’s Rural Development office inappropriately funded a Recovery Act WWD project, with
unexpended grant funds from a previous project approved for the borrower. State officials
claimed that they authorized the rollover of funds because the borrower had already been
approved for the funding during the previous project’s underwriting process and this funding
would be carried forward for eligible program purposes involving the next project. As a result,
RUS’ action provided the town of Farmington with an unfair advantage over new applicants by
not requiring the town to reapply for unused funds. This also violated grant limitation
requirements, which restrict the percentage of grant funds received to a maximum of 75 percent
of the total RUS-provided funding for a project.

RUS’ policy20 states that any applicant’s contributions will be the first funds expended in a
project and grant funds will be the last funds expended. 21 Once projects are completed, this
same policy states that grant funds not expended for authorized purposes will be cancelled. 22 In
addition, RUS’ policy 23 limits the percentage of grant funds received to a maximum of
75 percent of the total RUS-provided funding.

According to a Maine Rural Development State official, the town of Farmington is updating its
sewer system through a series of projects. In Rural Development’s Community Program
Application Processing System and the preliminary engineering report, documentation showed
that the most recent project, the Tannery Brook Line Improvements Project, 24 was designed to
replace lines in that system. In August 2009, RUS approved Recovery Act funding for the
project that included a $370,000 grant, a $131,000 loan, and $79,000 in applicant contributions.

While tracing these funds back to their source, we discovered that the $79,000 in applicant
contributions were actually unexpended grant funds left over from a prior RUS non-Recovery
Act project for the town, where an influent pump station was completed in October 2009. A
Rural Development official acknowledged there was approximately $79,000 remaining in grant
funds from the influent pump station project. The Rural Development officials at both the State
and area offices subsequently reported this same $79,000 as applicant contributions available in
the Tannery Brook Line Improvements Project’s underwriting process. In addition, while
reviewing the underwriting for the influent pump station project, we found that it had also
utilized $9,279 in RUS grant funding from another RUS project for this town that was completed
prior to the influent pump station project.

The Tannery Brook Line Improvements Project received approximately 73.8 percent 25 of its
funding through a grant, according to the underwriting documentation. However, when
considering all the funding from RUS, including the $79,000 in unexpended grant funds from the
20
   RUS Instruction 1780.45(f)(3), June 4, 1999.
21
   Rural Development letters of condition for the town of Farmington, dated April 1, 2009, and August 12, 2009.
22
   Cancelled grant funds would be returned to the RUS national office for re-obligation to other projects.
23
   RUS Instruction 1780.10, June 4, 1999.
24
   This project was selected as part of the statistical sample utilized in this audit. Our audit scope and sample
represent loans and grants obligated in FY 2009 with Recovery Act funds.
25
   Total Rural Development project funding, according to the documentation, is a loan in the amount of $131,000
and a grant in the amount of $370,000, totaling $501,000. $370,000/$501,000 = 73.8 percent.


                                                                  AUDIT REPORT 09703-0001-AT                        11
influent pump station project, RUS will actually finance 77.4 percent 26 of this project with grant
funds, which exceeds the maximum allowable grant funding of 75 percent of total project cost.

We could not determine if this condition was an isolated case or occurred frequently in Maine.
Upon discussion with the State office staff, we were informed that this was not the only time the
staff rolled forward unexpended grant funds to new projects with the same borrower. However,
the Maine State office provided a subsequent response citing that the town of Farmington is the
only occurrence that they were aware of where a project’s carryover funds were rolled into a new
project.

Maine’s State office staff believed that they were not violating any RUS regulations, as the
applicant had already applied for the previous grant and the funds left over from the previous
project would be spent on eligible project expenses, even though the expenses would be for a
different project. RUS national office officials agreed with our conclusion that the regulation
prohibited the rolling forward of grant funds from previous projects, regardless of whether the
projects are for the same borrower. However, RUS national office officials did state that they
believed this was an isolated incidence. A RUS national office official further stated the
remaining grant funds should have been spent for items within the scope of the previous project,
if possible, and if not, should have been de-obligated and returned to RUS for re-obligation. By
not cancelling the unused funds for re-obligation at the national office level, Maine’s Rural
Development State office gave the town of Farmington an unfair advantage over new applicants
for the unused funds. This unused funding, if returned to the national office when cancelled,
would have been placed in a pool that all applicants nationwide could compete for, rather than
being held in the town’s account for the next project.

We did not perform an analysis to determine the full extent to which the Maine Rural
Development office has rolled forward unexpended grant funding to other new projects or
otherwise inappropriately used unexpended grant funds; therefore, we have no conclusions on
the overall impact to the program.

We issued a Fast Report dated November 19, 2010, Audit 09703-0001-AT (1), “Controls Over
Water and Waste Disposal Loans and Grants – Inappropriate Use of Unexpended Grant Funds.”
The Fast Report’s recommendations and Rural Development’s official response to the
recommendations and our positions are included below.

Recommendation 2
Recover the $79,000 in rolled over grant funding from the town of Farmington.

Agency Response

In its November 30, 2010, response, Rural Development provided:


26
  Total Rural Development project funding, including the grant funding from the prior project, raises the total
project cost to $580,000, with a total grant amount of $449,000 ($370,000 for this project in addition to $79,000
from the previous project). $449,000/$580,000 = 77.4 percent.


12      AUDIT REPORT 09703-0001-AT
       * * * We agree that it was an error for the loan specialist in the State office to use the
       remaining grant funds from a previously funded project in the underwriting for the
       Tannery Brook phase of sewer improvements. It was also an error to refer to the
       remaining grant dollars as applicant contribution. The State office was directed to, and
       has, contacted the town of Farmington to inform them that they will not be able to utilize
       the $79,000 of grant funds remaining from the 2009 Influent Pump Station project for the
       Tannery Brook Project.

       The town of Farmington has subsequently requested that the $79,000 be utilized on the
       2009 Influent Pump Station project to install a [Supervisory Control and Data
       Acquisition], SCADA system. The SCADA computer system was included in the
       original scope, but not included in the bid, due to concerns by the community regarding
       sufficient funding.

       * * * 7 CFR 1780.45(f)(1) does permit remaining funds to “be used for eligible loan and
       grant purposes, provided the use will not result in major changes to the facility(s) and the
       purpose of the loan and grant remains the same.” Eligible items include, but are not
       limited to, reasonable items within the original project scope that will insure the system
       will operate more efficiently.

       The proposed SCADA system on the influent pump station would enhance the
       operational efficiency of the plant and, therefore, is an appropriate use of the remaining
       funds. If approved, the funds would not be returned to the Government. None of the
       remaining funds will be used for the Tannery Brook Project or any other project. * * *

       The proposed SCADA system on the influent pump station would enhance the
       operational efficiency of the plant and, therefore, is an appropriate use of the remaining
       funds. If approved, the funds would not be returned to the Government. None of the
       remaining funds will be used for the Tannery Brook project or any other project. * * *

OIG Position

We accept Rural Development’s management decision for this recommendation.

Recommendation 3
Perform a review of grants approved by the Maine State office to determine the extent to which
funds from one project have been rolled over to another project and correct any discrepancies
noted. If any discrepancies result in funds being due to the agency, as in the case of the town of
Farmington, we recommend Rural Development recover those amounts.

Agency Response

In its November 30, 2010, response, Rural Development provided:




                                                        AUDIT REPORT 09703-0001-AT                  13
       * * * [T]he Rural Development State office has indicated that this occurrence is an
       isolated incident. To confirm, RUS will review loan and grant assistance provided in
       Maine over the past two years (FY 09 & FY 10) and to determine whether other similar
       instances exist. * * *

On April 24, 2012, Rural Development provided the following additional information:

       During the week of February 28 to March 3, 2011, a senior national office staff member
       completed a field visit to the Maine State office. During that time, obligations from the
       past 4 years were reviewed. Both electronic records in the automated processing system,
       [Community Program Application Program] CPAP, and paper case files were reviewed
       on every project for which a subsequent project or additional funding was authorized to
       the same borrower. The review group consisted of a total of 10 borrowers other than
       Farmington. No additional instances of unliquidated rollover of funds were present in
       any of the cases reviewed. In addition, the review revealed that training was held for all
       Community Program staff on April 7, 2010, emphasizing that funds should not be carried
       over from one project to another project with the same borrower and should not be
       considered part of the applicant’s contribution on a new project. * * *

       Based on the files reviewed, the construction tracking reviewed, and the documented
       training conducted, the Agency determined that the Farmington case was an isolated
       incidence and has not been repeated. * * *

OIG Position

We accept Rural Development’s management decision for this recommendation.




14    AUDIT REPORT 09703-0001-AT
Scope and Methodology
RUS was allocated $3.8 billion in Recovery Act funds for WWD. Our audit work focused on
RUS’ management controls over WWD direct loans and grants funded through the Recovery
Act.

We conducted fieldwork at Rural Development’s national, State, and area offices. Exhibit D
contains a list of the locations of the 17 State offices and 20 area offices visited during our audit.
We also visited borrower/grantee locations and project sites, as deemed necessary, to complete
our audit work. We conducted our fieldwork between October 2009 and November 2011.

Using RUS’ universe of $1.5 billion in Recovery Act obligations as of September 30, 2009, we
statistically selected and reviewed 22 of 429 WWD projects. The 22 projects totaled
$189 million in loan and grant obligations under the Recovery Act for the water and waste
disposal loan and grant program. The sampling methodology used is detailed in exhibit E.

To accomplish our objectives, we:

   •   Reviewed regulations, policies, procedures, and other guidance concerning the
       administration of the water and waste disposal system loan and grant program and the
       Recovery Act, to include, but not limited to, 7 CFR 1780, “Water and Waste Loan and
       Grant Program” (6/1999); RUS Instruction 1780, “Water and Waste Loan and Grant”
       (9/2003); RUS Bulletin 1780-26, “Guidance for the Use of Engineers Joint Contract
       Documents Committee Funding Agency Edition Documents of Water and Waste Projects
       with RUS Financial Assistance” (9/2003); “Rural Development Recovery Act
       Implementation Plan” (5/2009); “Rural Development Water and Waste Review Guide”
       (10/09); Rural Development Internal Audit Process - E-mail description (10/2010) and
       Report (9/2009); OMB Memorandum M-09-10, “Initial Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009” (2/2009); OMB Memorandum M-09-
       21, “Implementing Guidance for the Reports on Use of Funds Pursuant to the American
       Recovery and Reinvestment Act of 2009” (6/2009); and OMB Memorandum M-10-34,
       “Updated Guidance on the American Recovery and Reinvestment Act” (9/2010).
   •   Reviewed internal and external reports, to include, but not limited to, Rural Development
       Management Control Reviews; State Internal Reviews; USDA Performance and
       Accountability Report; Government Accountability Office report; Recovery Act - Project
       Selection and Starts Are Influenced by Certain Federal Requirements and Other Factors;
       and OMB Program Assessment Rating Tool, and USDA OIG hotline.
   •   Interviewed RUS national, State, and area offices, and project officials regarding WWD
       and the Recovery Act controls and activities.
   •   Analyzed agency and borrower/grantee loan and grant files and other records, reports,
       correspondence to assess program aspects concerning eligibility, underwriting,
       distribution of Recovery Act funds, bidding and construction processes, disbursement of
       funds, compliance activities, and performance goals.
   •   Performed onsite reviews of borrower/grantee project sites.
   •   Reviewed and evaluated Rural Development’s and program recipients’ Recovery Act
       activities reported on Recovery.gov.


                                                          AUDIT REPORT 09703-0001-AT                15
In many instances, we were not able to review bidding, construction, and/or disbursement of
funds, as some projects had not fully progressed to these phases. We plan to more fully review
these areas in the next phase of our audit work. Exhibit D documents the list of 22 projects and
provides the status of project progress during our review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




16    AUDIT REPORT 09703-0001-AT
Exhibit A: Summary of Monetary Results

Finding    Recommendation             Description             Amount           Category
                                                                          Questioned Costs
                                 Rollover of Unexpended
   2               2                                              $79,000 – Recovery
                                      Grant Funds
                                                                          Recommended

TOTAL                                                             $79,000

The above table contains columns to identify the finding number, recommendation number,
description of error, program dollar amount impacted, and OIG management tracking
classification associated with the monetary results from the report’s findings.




                                                    AUDIT REPORT 09703-0001-AT            17
                                                                                                                      0-4 Months      5-30 Months      30-36 Months
                                                               Actual        Estimated        Expenditures
                             Total RUS       Obligation                                                                  from             from             from
State         Project                                       Construction    Construction          Per
                              Funding          Date                                                       1          Obligation to    Obligation to    Obligation to
                                                             Start Date      Start Date       Recovery.gov                        2                3                4
                                                                                                                     Construction     Construction     Construction
          City of
    AL                       $15,199,000     May 2009         Nov 2011                                      $0                             30
          Thomasville
    ID    City of Dubois        $964,000      Jul 2009        Aug 2010                               $841,960                              13
          Town of
    IN                        $5,542,000      Jun 2009        Oct 2010                             $3,943,348                              16
          Montezuma
          Twin Lakes
    IN    Regional Sewer     $22,112,000      Jul 2009        Aug 2011                             $2,078,190                              25
          District
          Garrison-
          Quincy-KY-O-
    KY                        $1,227,500      Aug 2009        Jun 2010                               $971,973                              10
          Heights Water
          District
          Town of
    LA                          $205,000      Jun 2009        Jan 2010                               $132,915                               7
          Jonesville
          Town of
    ME                          $501,000      Aug 2009        Sep 2010                               $332,147                              13
          Farmington
          City of
    MI                        $4,000,000      Jul 2009        Apr 2011                             $1,779,912                              21
          Hancock




1
  Recovery.gov recipient reporting data as of September 30, 2011.
2
  For consistency among categories, actual or estimated start of construction dates were measured based on months.
3
  See footnote 13.
4
  Estimated, as of November 2011. See footnote 13.
Exhibit B – Continued
                                                                                                               0-4 Months     5-30 Months     30-36 Months
                                                                   Actual       Estimated     Expenditures
                                 Total RUS       Obligation                                                       from            from            from
  State          Project                                        Construction   Construction       Per
                                  Funding          Date                                                   5   Obligation to   Obligation to   Obligation to
                                                                 Start Date     Start Date    Recovery.gov                                                 6
                                                                                                              Construction    Construction    Construction
             Atchison
             County
  MO         Wholesale           $22,000,000      Jun 2009                      Dec 2011                 $0                                        30
             Water
             Commission
             Clara Water
     MS      Association,           $555,800      May-2009       May-2010                          $555,800                        12
             Inc.
             Mt. Comfort
             Water
     MS                            $1,624,000     May-2009        Oct-2009                       $1,435,118                        5
             Association,
             Inc.
             North Central
     ND      Consortium-           $3,019,900     May-2009        Oct-2009                       $3,019,900                        5
             Radar Hill
             Village of
  NM                               $1,000,000     Jun-2009        Jul-2009                               $0        1
             Ruidoso Downs
             Town of
     NY                             $964,500      Jun-2009        Apr-2010                         $949,016                        10
             Volney
             Roland Utility
     OK                            $3,080,600     Jun-2009        Sep-2010                       $2,277,001                        15
             Authority
             Netarts-
             Oceanside
     OR                          $20,995,000      Jul-2009        Oct-2010                       $4,757,256                        15
             Sanitary
             District
             Town of St.
     VT                            $3,100,000     May-2009        Sep-2009                       $2,974,381        4
             Johnsbury

 5
     Recovery.gov recipient reporting data as of September 30, 2011.
 6
     Estimated, as of November 2011.
Exhibit B – Continued

                                                                                                               0-4 Months     5-30 Months     30-36 Months
                                                                   Actual       Estimated     Expenditures
                                 Total RUS       Obligation                                                       from            from            from
 State           Project                                        Construction   Construction       Per
                                  Funding          Date                                                   7   Obligation to   Obligation to   Obligation to
                                                                 Start Date     Start Date    Recovery.gov                                                 8
                                                                                                              Construction    Construction    Construction
             City of Hood
     OR                          $22,976,300      Sep-2009        Mar-2011                       $8,811,676                        18
             River
  WA         City of Shelton     $28,857,000      Sep-2009        Jan-2010                      $16,790,343        4
  WV         City of Elkins      $29,075,000      May-2009                      May-2012                 $0                                        36
  WV         Big Bend PSD          $1,800,000     May-2009                      Feb-2012                 $0                                        33
  WV         City of War            $180,300      May-2009        Feb-2011                         $180,300                        21
TOTAL                           $188,978,900                                                    $51,831,236
The above table contains a listing of the 22 sampled projects, where projects are located, total RUS funding, funding obligation date,
actual or estimated start date for construction, and elapsed time from the obligation date to the start or estimated start of construction.




 7
     Recovery.gov recipient reporting data as of September 30, 2011.
 8
     Estimated, as of November 2011.
Exhibit C: Number of Jobs

                                                           Projected Number of Jobs
                                                                                               Number of Jobs
                        Project                                    Created 35
                                                                                                 Created 36

 City of Thomasville                                                    338.4                           0
 City of Dubois                                                         22.4                           3.4
 Town of Montezuma                                                      92.4                          17.79
 Twin Lakes Regional Sewer District                                     338.3                         30.92
 Garrison-Quincy-KY-O-Heights Water District                            81.1                          3.12
 Town of Jonesville                                                      7.0                          0.26
 Town of Farmington                                                      8.9                            1
 City of Hancock                                                        61.2                          7.25
 Atchison County Wholesale Water Commission                             336.6                           0
 Clara Water Association, Inc.                                           8.5                          11.46
 Mt. Comfort Water Association, Inc.                                    24.8                          13.55
 North Central Consortium-Radar Hill                                    47.7                          26.83
 Village of Ruidoso Downs                                               61.2                            0
 Town of Volney                                                         14.8                           8.8
 Roland Utility Authority                                               47.1                           28
 Netarts-Oceanside Sanitary District                                    347.3                         35.68
 City of Hood River                                                     351.5                          90
 Town of St. Johnsbury                                                  47.4                           8.5
 City of Shelton                                                        643.5                        128.86
 City of Elkins                                                         444.8                           0
 Big Bend PSD                                                           36.7                            0
 City Of War                                                            22.4                            0
 TOTAL                                                                  3,384                        415.42
The above table contains the name of each sampled project and the estimated and actual jobs
created or retained between February 17, 2009, and September 30, 2011. Jobs created or
retained are reported by recipients each quarter on the Recovery.gov website. In some cases, we
contacted RUS State officials or recipients to confirm the number of jobs created; however, we
did not confirm all of these figures.


35
   Figures were provided by RUS’ national office. These figures are multiplier-based and were included in the
project summaries for each project. The multiplier was based on so many jobs per millions of project dollars and
was Departmentwide.
36
   Recovery.gov recipient reporting data as of September 30, 2011, based on full-time equivalents.

                                                                  AUDIT REPORT 09703-0001-AT                       21
Exhibit D: State and Area Offices Reviewed

               State     State Office Location    Area Office Location
      1        AL         Montgomery, AL            Camden, Alabama
      2        ID              Boise, ID             Blackfoot, Idaho
      3        IN          Indianapolis, IN         Covington, Indiana
      4        IN          Indianapolis, IN         Covington, Indiana
      5        KY           Lexington, KY          Morehead, Kentucky
      6        LA          Alexandria, LA          Jonesville, Louisiana
      7        ME            Bangor, ME              Lewiston, Maine
      8        MI         East Lansing, MI         Gladstone, Michigan
      9        MO           Columbia, MO           St. Joseph, Missouri
     10        MS            Jackson, MS         Hattiesburg, Mississippi
     11        MS            Jackson, MS          Starkville, Mississippi
     12        ND           Bismarck, ND         Bismarck, North Dakota
     13        NM         Albuquerque, NM        Las Cruces, New Mexico
     14        NY           Syracuse, NY          Watertown, New York
     15        OK           Stillwater, OK        McAlester, Oklahoma
     16        OR            Portland, OR            Corvallis, Oregon
     17        OR            Portland, OR           Redmond, Oregon
     18        VT          Montpelier, VT         St Johnsbury, Vermont
     19        WA           Olympia, WA           Olympia, Washington
     20        WV         Morgantown, WV           Elkins, West Virginia
     21        WV         Morgantown, WV          Beckley, West Virginia
     22        WV         Morgantown, WV          Beckley, West Virginia




22        AUDIT REPORT 09703-0001-AT
Exhibit E: Sampling Methodology and Results
Objective

This sample was designed to support OIG Audit 09703-0001-AT. The objective was to
determine whether loans/grants awarded using Recovery Act funds complied with applicable
laws and agency procedures.

Audit Universe and Sample Design

Our universe consisted of 429 loans and grants obligated under the Recovery Act as of
September 30, 2009. The universe list was obtained by the audit team from RUS. The loans or
grants were spread over 48 States (there were none in Colorado or Wyoming) and Puerto Rico.
To meet the audit objectives, the audit team chose to execute a stratified sample with 6 high-
dollar projects in a census stratum and 16 projects selected with equal probability from the
423 projects in the second stratum. We had no prior results for WWD to use in sizing the
sample. We expected a sample of 22 projects would support projections satisfying the following
combination of conditions: a zero percent expected error rate, a 90-percent desired confidence
level, and a desired upper error limit of about 13 percent for a stratified sample. 37


Table 1: Summary of the universe and sample design counts

                                                                Universe: Number             Sample: Number
     Stratum              Stratum Description
                                                                of Loans or Grants          of Loans or Grants

                   Top six loans or grants based on
     Stratum I                                                             6                            6
                   dollar award value.
     Stratum II    All remaining loans and grants                         423                          16
 TOTAL                                                                    429                          22




37
  This combination means that if we found no exceptions to a criterion, we could be 90-percent confident that the
error rate in the population did not exceed 13 percent. There would be a 10-percent risk that the error rate exceeded
13 percent. Any criterion for which we observed errors would have either a higher upper limit or a lower confidence
level.

                                                                  AUDIT REPORT 09703-0001-AT                      23
Abbreviations
CFR ............................. Code of Federal Regulations
FY ............................... Fiscal Year
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
Recovery Act .............. American Recovery and Reinvestment Act of 2009
RUS ............................. Rural Utilities Service
SCADA ....................... Supervisory Control and Data Acquisition
USDA.......................... Department of Agriculture
WWD .......................... Water and Waste Disposal System Loan and Grants Program




24    AUDIT REPORT 09703-0001-AT
Agency’s Response




                  USDA’S
          RURAL UTILITIES SERVICE
         RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 09703-0001-AT   25
                                              United States Department of Agriculture
                                                        Rural Development




DATE:                 June 1, 2012

TO:                    Gil Harden
                       Assistant Inspector General for Audit

FROM:                  Jonathan Adelstein /s/
                       Administrator
                       Rural Utilities Service

SUBJECT:               Final Report on Rural Utilities Service’s Controls over the Water and
                       Waste Disposal (WWD) System Recovery Act Projects
                       Audit # 09703-0001-AT


The Rural Utilities Service appreciates the opportunity to review the draft report dated
May 31, 2012 regarding your oversight activities related to the water and waste disposal
system program implementation of the funding received through the American Recovery
and Reinvestment Act of 2009, P.L. 111-5, (Recovery Act). We are pleased that the
report reconfirms that the program has effective controls in place, and that the timeliness
and application processing actions taken in regard to Recovery Act funding is not in
question.

Through the Recovery Act, the water and waste disposal loan and grant program
provided $3.261 billion for 854 projects in 50 states. The Rural Utilities Service is proud
of the progress made to date by its Recovery Act water and waste funds recipients. Much
progress has been made toward construction of this much-needed rural infrastructure.

As of May 25, 2012, ninety-three percent of the 836 remaining projects 1 funded are at the
point of bid, or beyond. This represents 90%, or $2.83 billion of the WWD Recovery Act funds
awarded. We are pleased that in 203 recipient communities where projects are complete,
the public is already receiving the benefits of new or improved infrastructure, and in 461
additional recipient communities the public can witness active construction in progress.
(including the Atchison County, MO project noted in the report for which construction
started in December 2011.)

As noted in the report, the Agency has addressed the two primary concerns raised
through the audit and is pleased that we have reached management decision on all
accounts.

1
    Twenty projects were deobligated at the request of recipients after September 30, 2010.
                                     1400 Independence Ave., S.W. Washington, DC 20250-0700
                                                 Web: http://www.rurdev.usda.gov

                                              Committed to the future of rural communities.

                                        “USDA is an equal opportunity provider, employer and lender.”
            To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                           Washington, DC 20250-9410 or call (800)795-3272 (voice) or (202) 720-6382 (TDD).
Information copies of this report have been distributed to:

Administrator, RUS
      ATTN: Agency Liaison Officer

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
       Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
